<html>
<title> - REAUTHORIZATION OF THE SECOND CHANCE ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                REAUTHORIZATION OF THE SECOND CHANCE ACT 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 29, 2010

                               __________

                           Serial No. 111-154

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

58-479 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 













                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
MIKE QUIGLEY, Illinois
TED DEUTCH, Florida

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel

















                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 29, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Ms. Le'Ann Duran, Director, National Reentry Resource Center, 
  Council of State Governments, New York, NY
  Oral Testimony.................................................    10
  Prepared Statement.............................................    13
Ms. Michele Banks, Richmond Second Chance Reentry Program 
  Manager, Richmond City Sheriff's Office, Richmond, VA
  Oral Testimony.................................................    30
  Prepared Statement.............................................    33
Ms. Nancy G. La Vigne, Director, Justice Policy Center, The Urban 
  Institute, Washington, DC
  Oral Testimony.................................................    34
  Prepared Statement.............................................    37
Mr. David B. Muhlhausen, Ph.D., The Heritage Foundation, 
  Washington, DC
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Ms. Gladyse Taylor, Acting Director, Illinois Department of 
  Corrections, Chicago, IL
  Oral Testimony.................................................    60
  Prepared Statement.............................................    61

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Post-Hearing Questions from Nancy La Vigne, Director, 
  Justice Policy Center, The Urban Institute, Washington, DC.....    78


                        REAUTHORIZATION OF THE 
                           SECOND CHANCE ACT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 2010

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4:10 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, and Gohmert.
    Also Present: Representative Davis of Illinois.
    Staff Present: (Majority) Bobby Vassar, Subcommittee Chief 
Counsel; Jesselyn McCurdy, Counsel; Keenan Keller, Counsel; 
Veronica Eligan, Professional Staff Member; (Minority) Kimani 
Little, Counsel; and Kelsey Whitlock, Legislative Assistant.
    Mr. Scott. Good afternoon. Welcome to the oversight hearing 
on Reauthorization of the Second Chance Act.
    In April, 2008, the historic Second Chance Act was signed 
into law. It authorized Federal grants to government agencies 
and non-profit organizations in order to better address the 
needs of the growing population of ex-offenders returning to 
our community.
    Although the 2-year authorization for the Second Chance Act 
will expire on September 30, there are still grant funds that 
were appropriated under the original authorization that the 
Department of Justice will award over the next year.
    As Congress continues to evaluate and implement the Second 
Chance Act, today's hearing will examine some of the programs 
that have been funded under the law. According to the U.S. 
Bureau of Labor Statistics, in 2008 more than 7.3 million 
people were on probation or parole or in prison, which equals 
3.2 percent or one in every 31 adults. This is the highest rate 
in the world. The number of prisoners have quadrupled over the 
past two decades to more than 2.3 million, and the number of 
adults under the criminal justice system through parole and 
probation agencies has more than tripled, to more than 5 
million.
    The growth of the incarcerated population has resulted in 
over 700,000 people being released from prisons and jails every 
year. These people must successfully reintegrate in our society 
or be at risk of going back to prison. The bipartisan Second 
Chance Act was established to provide resources to local 
communities to help former offenders transition back to their 
communities.
    Today we will hear about a program in the Richmond Virginia 
Sheriffs Office funded by the Second Chance Act that provides 
wraparound services, including substance abuse treatment, 
education, employment readiness, and life skills to people 
returning home from jail. This program serves up to 50 
participants and assists them in successfully reuniting with 
their community or otherwise improving their lives.
    One of the problems we have with the Second Chance Act 
programs is that funding of the programs has not been made 
available long enough for the programs to show enough activity 
and results to credibly evaluate their impact. Moreover, with a 
2-year authorization period, the Act's reauthorization is about 
to expire before there is sufficient basis to evaluate its 
impact in the normal way we do it. But we know there are 
reentry programs across the country that are successful in 
stopping the cycle of incarceration. So I hope that we can 
provide for a longer period for evaluation for the next 
reauthorization.
    The reentry programs funded by the Department of Justice 
prior to funding being made available under the Second Chance 
Act does give us a basis for evaluation, except that we had a 
July Department of Justice Inspector General's audit report 
that found that, while DOJ has apparently established 
appropriate procedures for oversight and evaluation for Second 
Chance Act grants, it did criticize DOJ oversight of prisoner 
reentry programs that were established prior to the Second 
Chance Act.
    Although this report found flaws in the Department's design 
and performance measures of the Serious and Violent Offender 
Reentry Initiative and its Prisoner Reentry Initiative, the 
audit was clear about the fact that these problems were being 
addressed in the context of the Second Chance Initiative.
    Several of the today's witnesses will discuss reentry 
programs funded by the Second Chance Act that are making great 
progress in keeping former offenders from returning to prison. 
Another of today's witnesses will discuss the audit and how the 
Department of Justice has responded to those criticisms. I look 
forward to hearing more from our witnesses about the good work 
that is being done with the Second Chance Act funding, and I 
would like to hear how we can improve the Second Chance Act 
during this reauthorization process to provide more 
opportunities for the rehabilitation of offenders.
    We have several witnesses today, but, before I introduce 
them, I will yield to the Ranking Member of the Subcommittee, 
the gentleman from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Today's hearing does focus on reauthorization of the Second 
Chance Act signed into law by President Bush on April 9, 2008. 
The goal of the legislation was to provide Federal assistance 
to help State and local governments implement programs to ease 
the transition of offenders from prison back to the community. 
The Act authorizes up to $330 million for prison reentry 
programs during fiscal years 2009 and 2010.
    Reentry programs are essential in assisting the nearly 
700,000 individuals who are released from incarceration each 
year. Studies show that, unfortunately, about two-thirds of 
these ex-offenders will recidivate within 3 years. Higher 
recidivism rates not only decrease the safety of the 
neighborhoods affected by the crime but also increase 
government expenditures on prisons and criminal justice 
systems.
    To combat recidivism, the Second Chance Act authorizes the 
Department of Justice to provide Federal grants to State and 
local government agencies and nonprofit organizations to 
provide employment assistance, substance abuse treatment, 
housing, family programming, rendering victim support and other 
services that can help reduce recidivism.
    When we debated the Second Chance Act of 2007 in the last 
Congress, I supported including a provision to fund faith-based 
initiatives because of their proven success and cost 
efficiency. Faith-based programs are frequently less expensive 
than other reintegration initiatives.
    Further, faith-based prisoner rehabilitation and post-
relief programs have proven successful in reducing the 
likelihood that a prisoner will reoffend. In a previous hearing 
on the collateral consequences of incarceration, one witness 
noted that some faith-based groups have created reentry 
programs that reduce recidivism among its participants by over 
50 percent.
    As Federal deficits continue to skyrocket, Congress needs 
to continue to identify successful programs as we cannot afford 
to just fund programs blindly, especially if they only provide 
mediocre results. As Congress considers whether to reauthorize 
the Second Chance Act, we need to gather as much information as 
possible to ensure that the prisoner reentry programs funded by 
the DOJ actually result in the goal of reducing recidivism. 
Unfortunately, we do not have very much information about 
whether these programs reduce recidivism, because many reentry 
grant recipients are not closely monitored by the DOJ.
    In July of this year, the DOJ Inspector General released a 
report concluding that the Department did not establish an 
effective system for monitoring recipients of grants made under 
the Serious and Violent Offender Reentry Initiative and the 
Prisoner Reentry Initiative, two programs that were precursors 
to the Second Chance Act. The audit did not find specific flaws 
with the Second Chance Act reentry grant programs because its 
audit only covered programs funded from 2002 to 2009.
    That said, other observers have not been able to fully 
evaluate the Second Chance Act programs as the programs are 
still very new. There has not been sufficient time to examine 
and evaluate the programs for effectiveness. However, the 
Second Chance Act does not require grant recipients to track 
and report baseline and ongoing recidivism data. As we consider 
reauthorizing these programs, Congress should contemplate 
including directives to the DOJ to collect this information and 
improve its monitoring of reentry grants.
    Lastly, I understand that some proponents of the Second 
Chance Act are not only actively seeking its reactivation but 
also pushing for an expansion of the reentry programs funded by 
DOJ. At this time of economic hardship, it is not prudent to 
expand these programs to increase their level of authorization, 
especially considering their effectiveness has not been yet 
proven.
    As a former State judge, I strongly support efforts to 
reduce recidivism by assisting ex-convicts in their reentry 
into communities. However, we can no longer afford to wantonly 
spend Federal money on programs that may or may not be 
inefficient and ineffective.
    I look forward to working with my colleagues on both sides 
of the aisle to develop a sensible, cost-efficient Federal 
policy to reduce recidivism and to improve ex-convict 
reintegration into communities and families.
    Again, I thank the Chairman for holding this hearing. This 
is an important topic regarding the safety of our country. So I 
look forward to hearing the witnesses' testimony and yield back 
my time.
    Mr. Scott. We are joined by the Chairman of the full 
Committee, a strong supporter of the Second Chance Act, Mr. 
Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I would like my statement to be put into the record.
    Mr. Scott. Without objection.
    [The prepared statement of Chairman Conyers follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Conyers. Then I would just like to talk about the 
environment in which this bill was brought forward and created. 
And the whole theme under it is that people with different 
views can work together.
    Look, when Conyers and George Bush can land on the same 
subject, when Judge Gohmert and Bobby Scott can land on the 
same subject, when Danny Davis and Rob Portman can land on the 
same subject, this illustrates that there may be other areas 
that we may be able to come together on.
    One of them is the Performance Rights Bill which I have a 
number of conservative members working with me on. And this is 
heartening because, well, I was just asked on the floor during 
the last series of votes by--I'm pretty sure she was a freshman 
Member--and she said, have you ever seen it so partisan since 
you've been here? And I said the short answer is yes. And I'm 
amazed when people say the atmosphere has never been so 
vitriolic.
    Look, when I came here, Strom Thurman and Bilbo--there was 
a long list of people who--there was no chance of us talking to 
even see if we could come together. There was very serious 
divisions. And I say that not to make it seem that it is okay 
for what is going on now but to say that the nature of the 
political process is that there are sharp divisions and 
certain--some individuals go to different ways to express the 
strongness of their convictions that are held.
    So what this bill represents is the combined thinking of 
moderates, conservatives, and liberals together. And it is 
probably to the Chairman and Ranking Member of this Committee 
that much of that emanated from.
    Sure, I was surprised on April 9, 2008, in the White House 
when President George W. Bush signed this bill into law. And he 
was unreservedly enthusiastic about it. And I was just as 
surprised that he was enthusiastic as he was enthusiastic about 
it.
    So I think that is a very important backdrop on the work 
that Danny Davis and Rob Portman began. We have come a long way 
on a very important subject.
    So I will return the balance of my time.
    I will yield to the judge.
    Mr. Gohmert. I have been asked that question, too: Have you 
ever seen things so vicious between parties?
    I explain historically around the 1800's there was one 
senator that called the other liar. And that one spit on the 
one who called him a liar and whacked him with his cane. The 
one that got whacked went over and got fire tongs and they beat 
each other and eventually were broken up.
    And then of course Senator Sumner on the floor of the 
Senate was nearly beaten to death with a cane. Senator Sam 
Houston was involved in a caning for a guy that called him a 
thief and liar or fraud.
    I tell people, we haven't had a good caning since I've been 
here. So, as bad as it has been here recently, it is not as bad 
as it was historically, and it will always be a pleasure and an 
honor to serve with you.
    Thank you.
    Mr. Conyers. I will have to make a note of all of these 
incidents. I didn't know anybody was keeping track. Very good. 
Thank you, Judge Gohmert.
    Mr. Scott. We have several witnesses to help us consider 
the issues today.
    Our first witness is Le'Ann Duran, who is the reentry 
project director for the Council of State Governments and the 
Justice Center. She oversees efforts at the Council of State 
Governments to improve the likelihood that people's transition 
from prison to the community are safe and successful. In this 
capacity, she manages the National Reentry Resource Center, 
which is funded by a Second Chance Act grants.
    After she has testified, our next witness will be Michele 
Banks from the Richmond Second Chance Reentry System. She is 
the grant manager for the City of Richmond, Virginia. In 
addition to managing a diverse grant portfolio, she also writes 
and administers grants from a variety of funders for the City 
of Richmond. We are delighted to have you here, and 
particularly I look forward to your testimony on what the 
sheriff has been doing on behalf of reducing recidivism.
    Next will be Nancy La Vigne, who is the director of the 
Justice Policy Center of the Urban Institute, where she leads a 
staff of over 30 researchers and oversees a research portfolio 
of more than three dozen active projects spanning a wide array 
of crime, justice, and public safety topics. Before being 
appointed as director, she served as senior research associate 
at the Urban Institute, directing projects on prisoner reentry, 
crime prevention, and the evaluation of criminal justice 
technologies.
    Next witness will be David Muhlhausen, who is a leading 
expert on criminal justice programs in the Heritage 
Foundation's Center for Data Analysis. A senior policy analyst 
at Heritage, he has testified frequently before Congress on the 
efficiency and effectiveness of law enforcement grants 
administered by the Department of Justice.
    Our final witness will be Gladyse Taylor, the acting 
director of the Illinois Department of Corrections. She has 
been involved in all areas of the Department of Corrections 
policy, procedure, and operations. She left the Department in 
2005 for a position in the Governor's Office of Management and 
Budget where she served as deputy director. She returned to the 
Department in February as chief fiscal officer and director of 
the Public Safety Shared Services Center before being appointed 
as acting director.
    Each of our witnesses' written statements will be entered 
in the record in its entirety. I ask the witnesses to summarize 
your testimony in 5 minutes or less; and to help stay within 
that time there is a timing device before you that will start 
green, change to yellow when you have 1 minute remaining, and 
change to red when your time has expired.
    Ms. Duran.

TESTIMONY OF LE'ANN DURAN, DIRECTOR, NATIONAL REENTRY RESOURCE 
       CENTER, COUNCIL OF STATE GOVERNMENTS, NEW YORK, NY

    Ms. Duran. Thank you, Chairman Scott, Ranking Member 
Gohmert, and Members of the Committee for holding this hearing 
on the Second Chance Act.
    My name is Le'Ann Duran. I am the director of the National 
Reentry Resource Center. When the Second Chance Act was passed 
in 2008, I had been working for 5 years to design and implement 
a comprehensive reentry effort called the Michigan Prisoner 
Reentry Initiative.
    Second Chance came at a critical time in Michigan's work. 
For the first time, there was Federal legislation and a clear 
message from Congress that improving reentry policy and 
practice is vital to public safety. This message fueled public 
and legislative support for Michigan's reentry initiative, 
which enhanced public safety by reducing recidivism and 
ultimately allowed the State to reduce its prison population by 
12 percent, saving an estimated $900 million. The establishment 
of a National Reentry Resource Center was an important step to 
advance the reentry field.
    Congress and the Bureau of Justice Assistance are 
strengthening government, community, and faith-based 
organizations receiving Federal funds to ensure the most 
effective use of those investments.
    Following a highly competitive process, the Bureau of 
Justice Assistance awarded the contract for the National 
Reentry Resource Center to the Council of State Governments 
Justice Center.
    We have learned a great deal from our work with Second 
Chance grantees, though it is still very early in the process.
    Second Chance Act programs have been incredibly popular. In 
the first year of the program, over 950 applicants applied for 
Second Chance funding. Of those applications, 67 grantees were 
funded across 31 States. This demand establishes the Second 
Chance Act as one of the most competitive justice programs with 
only a 7 percent funding rate in the first year. Over 170 2010 
awards were announced this week, representing the best of 
almost 1,000 applications. The demand for continued and 
expanded funding is strong.
    Two types of grant programs were funded in 2009. The first 
category, demonstration projects, was for State, local, and 
tribal governments interested in advancing their reentry 
initiatives. For example, the Florida Department of Corrections 
is partnering with the City of Jacksonville to implement a 
comprehensive reentry model designed to reduce the risk of men 
and women returning to Jacksonville.
    The second program category, mentor grants, is available to 
nonprofit organizations to advance their pro-social support 
efforts. In Texas, Volunteers of America is using their grant 
to implement a new reentry initiative targeting incarcerated 
mothers and will provide mentoring and family case management 
services to improve the outcomes of these moms and their 
children.
    The resource center and its partners have designed three 
core strategies to respond to grantee needs as well as the 
field at large. First, we're creating a number of Web-based 
tools to help practitioners help themselves; second, we are 
building a more cohesive, knowledgeable reentry field by 
facilitating peer-to-peer learning; and, third, we are 
providing individualized assistance to grantees to respond to 
their emerging needs.
    We are also working with the Urban Institute to develop an 
online what works library for policymakers and reentry 
practitioners.
    So the big question is, how is it going? While still very 
early in the process, the program is thriving, both in the 
immense demand for grants, the establishment of a resource 
center for the field, and early accomplishments by the first 
cohort of grantees.
    It is apparent there is good work happening; and 
government, community, and faith-based organizations are 
working together to address the needs of this population. It is 
an exciting time to be working in the field of reentry which 
has existed for barely more than a decade but is vibrant with 
innovation.
    Also, through this process, several challenges have 
emerged. First, around program design. Grantees in the reentry 
field generally are becoming increasingly familiar with the 
body of evidence about the strategies that reduce recidivism, 
but they continue to struggle with translating these concepts 
into policy and practice. The Second Chance Act is a strong 
first step to providing the reentry field with guidance about 
smart program interventions, but it will take time to turn the 
battleship of corrections in a data-driven direction.
    Second, tracking recidivism. The Second Chance Act sets 
appropriately high expectations for sites that receive Federal 
funding to reduce recidivism, but grantees will need assistance 
understanding what to measure and how to obtain and routinely 
track quality information. BJA and the Resource Center will 
continue to work closely to implement the recommendations 
outlined in the Inspector General's report of Federal programs.
    Key to effectively addressing the OIG's concerns is working 
with grantees to track outcomes, but it will take time.
    We appreciate your leadership and your work through the 
Second Chance Act. It is a monumental step in changing how we 
address reentry. We hope you will reauthorize the program 
quickly to help further advance the field at large and expand 
our knowledge about reentry evidence and the practice of smart 
reentry strategies nationwide.
    Thank you.
    [The prepared statement of Ms. Duran follows:]
                   Prepared Statement of Le'Ann Duran

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Ms. Banks.

  TESTIMONY OF MICHELE BANKS, RICHMOND SECOND CHANCE REENTRY 
 PROGRAM MANAGER, RICHMOND CITY SHERIFF'S OFFICE, RICHMOND, VA

    Ms. Banks. Chairman Scott, Ranking Member Gohmert, and 
Members of the Subcommittee, I thank you for the opportunity to 
testify before you today on the matter of reauthorizing the 
Second Chance Act.
    The Richmond City Sheriff's Office in the City of Richmond, 
Virginia, was one of 15 localities to receive the 2009 Second 
Chance Adult Demonstration Grant. Under the leadership of 
Sheriff C.T. Woody, Jr., we have had the privilege of providing 
our returning citizens with evidence-based, comprehensive, and 
individualized case management because of the Second Chance 
Act.
    The Richmond city jail's total inmate population averages 
1,400 or more, but the facility was built to hold less than 
900. The Second Chance Act has allowed our team to effectively 
address the root causes of a high recidivism rate and 
overcrowding among the disproportionate number of offenders 
that are returning to the Richmond community.
    We have been able to provide a sustainable and relevant 
reentry program with our pilot focusing on 30-year-old female 
and male inmates. While addressing the high criminality across 
generations, often correlated with poverty and separated 
families, our program has focused on treatment of the whole 
person. The approach has made a much wider impact, not only 
reducing recidivism and improving quality of life among the 
inmates but also among their family members and, consequently, 
the larger community.
    The City of Richmond, Virginia, has been able to 
effectively partner with local government agencies, community 
based service providers to assist ex-offenders with issues 
surrounding substance abuse, homelessness, mental and physical 
health, unemployment, educational challenges, and family 
instability. Our three-pronged approach of Getting Ready, Going 
Home, and Staying Home consists of integrated pre- and post-
release services that include substance abuse treatment, 
transitional housing options, connections to mental and 
physical health services, GED and vocational education, 
responsible financial management and job-readiness skills 
training as well as mentoring and family reunification 
services.
    It is quite a sight to see an inmate who arrived at the 
jail coming down off a binge of drugs and alcohol, homeless, 
jobless and not supporting his family in any way to leave a 
recovering addict, equipped with a GED, and equipped with a 
vocational training certificate. He is prepared to work hard, 
manage money, pay restitution, and become a leader in his home.
    As I am sure some cynics will believe this is unrealistic, 
one of our faith-based programs has graduated 21 participants 
with only one returning to jail or prison. It was our community 
partnership and the Second Chance Act that has allowed the 
program to continue in our jail.
    Through the Second Chance Act, the Richmond jail and our 
close community partners have been able to collaboratively 
design and implement a comprehensive reentry model that uses 
risk and need assessments to link our returning citizens to 
much-needed services at each of the various stages of reentry. 
We now have the capacity to provide a continuum of service as 
well as maintain close contact with both the program 
participants and service providers to ensure successful service 
delivery and performance measurement tracking.
    The success of our program is evidenced by our recent work 
with a 45-year-old woman who, at age 8, was drugged by her 
father and used for child prostitution. Coming to us with only 
a third grade education, she can now stand before a room of her 
peers and program staff to confidently articulate her well-
thought-out transition plan that consists of supportive 
services provided by our Second Chance Program.
    We are confident that the reauthorization of the Second 
Chance Act will enable the production of increased positive 
outcomes among this disadvantaged and high-risk population. 
With reauthorization lies the ability to replicate this model 
into other areas of Virginia with similar demographic and risk 
profiles. The idea is to continually maximize efficiencies 
among collaborative partners as the model expands, developing 
increased options for this developing population to become 
hardworking, personally responsible, tax-paying and law-abiding 
citizens. This will virtually assure stronger families and 
safer communities.
    Mr. Chairman and Members of the Subcommittee, thank you for 
including me in this valuable discussion.
    [The prepared statement of Ms. Banks follows:]
                  Prepared Statement of Michele Banks

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you.
    Ms. La Vigne.

   TESTIMONY OF NANCY G. LA VIGNE, DIRECTOR, JUSTICE POLICY 
          CENTER, THE URBAN INSTITUTE, WASHINGTON, DC

    Ms. La Vigne. Thank you, Chairman Scott, Ranking Member 
Gohmert, Mr. Conyers. It is a pleasure to be here today.
    I believe all of us in this room are here for the same 
reason. It is because we care about public safety. And I think 
that perhaps the biggest way to achieving increased public 
safety is by focusing on the men and women who are leaving 
prison and returning to their communities. They have many 
needs. They have many issues. So the goal here is to give them 
the support and the services they need so that they can 
successfully reintegrate. If they don't, they end up committing 
new crimes, creating new victimizations, and costing us more 
money because they ultimately end up back behind bars. We know 
that that is a very expensive alternative.
    We all know that that is the purpose of the Second Chance 
Act. It is to reduce recidivism and increase public safety. But 
the question remains how best do we use the Second Chance Act 
dollars. This is particularly important in light of the 
conversation about reauthorization. How do we get the best 
impact out of those dollars and how do we know if we are really 
making a difference in public safety?
    I am happy to note that we have already made great strides 
in this regard through existing Second Chance Act investments. 
The Bureau of Justice Assistance has implemented a performance 
measurement system that warms this evaluator's heart because it 
requires grantees to input data on who they are serving, the 
characteristics of those individuals, what their needs are, 
what kinds of services they received, and what were their 
outcomes.
    This is very important. It is important for accountability 
of grantees, it is important for us to be able to measure the 
impact of their programs ultimately on recidivism and other 
important reentry outcomes like employment housing and 
substance abuse.
    I also think it is really important that the Second Chance 
Act through the National Reentry Resource Center is delivering 
much-needed technical assistance to the sites. At the Urban 
Institute, we have been working with the States and counties 
for the last decade helping advise them on how to develop 
empirically based programs and also evaluating those programs; 
and the single biggest challenge that we have observed with 
these sites is their lack of data, their lack of information on 
who the returning prisoner population is, what are their needs.
    There is a limited ability to understand their needs and 
their risks; and, without that data, they are unable to target 
resources to those who most need them. And so, in that sense, 
if they can't make those important decisions in spending these 
scarce resources--because even with Second Chance Act funding 
these resources are still limited--if they can't do that, they 
are essentially investing money in programs that may not work 
even theoretically because they might not be treating the right 
people.
    Another area of the Second Chance Act is one that Ms. Duran 
already referenced, that is the what works resource. It is 
something we are working on at the Urban Institute in response 
to the call from the field to say what do you all mean by 
evidence-based practice? We keep hearing that we are supposed 
to be implementing evidence-based practice and we have a sense 
of what that means is what rigorous research has determined 
works. But there is no one place where we can go to get that 
information.
    There is a lot of research and scholarly journals, and I 
think it is quite unrealistic to expect practitioners in the 
field to read those journals. There are different studies that 
often conflict, and there is no one place that they can go for 
those resources.
    So we at the Urban Institute are compiling all of that 
information. We have identified a thousand individual studies 
that we are now coding and assessing both for their findings 
and the quality of the research, and we are going to be 
distilling that information and creating a Web site that is 
searchable and accessible to the field so they can use that 
information to inform the development of their programs.
    So those are all of the good things that are happening 
right now. But, in consideration of reauthorization, I just 
want to touch upon a recommendation and that is to consider 
funding future grantees in phases.
    Phase one would fund the grantees for some preliminary 
granting work and also have a research partner at the table 
also funded at the same time who can help him with these data 
challenges that I already referenced. The researcher can help 
them identify the population to serve and the very data that 
they need to do that will also support a rigorous evaluation.
    Having the evaluator in at the beginning can also enable us 
to assess whether the program that is being designed is worthy 
of evaluation. Can it meet evaluation at its highest rigor? Is 
it amenable to what we often refer to as the gold standard, 
which is a randomized controlled trial? We talk a lot about 
that as the goal in evaluation, and yet that is often hard to 
implement in the field. So having a researcher there at the 
outset can determine that but can also determine an alternative 
and yet rigorous design that could be employed.
    I also think it is important to note that if for whatever 
reason there is no opportunity to work with the sites in a way 
that you can get the data that you need and that they are 
willing to explore their data and participate in an evaluation, 
the phased funding enables grant makers makes a decision or 
perhaps not funding them further past phase one.
    In summary, I think this phase funding combined with the 
technical assistance and the research support that is already 
in place holds great promise to achieving the goal that I think 
we all share, and that is public safety.
    Thank you.
    [The prepared statement of Ms. La Vigne follows:]
                Prepared Statement of Nancy G. La Vigne

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. Thank you.
    Mr. Muhlhausen.

           TESTIMONY OF DAVID B. MUHLHAUSEN, Ph.D., 
            THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Muhlhausen. My name is David Muhlhausen. I am a 
research fellow in the Center for Data Analysis at the Heritage 
Foundation. I thank Chairman Scott, Ranking Member Gohmert, and 
Mr. Conyers for the opportunity to testify today on the Second 
Chance Act. The views I express in this testimony are my own 
and should not be construed as representing any official 
position of the Heritage Foundation.
    Congress's desire to weigh in on the recidivism rate of 
former prisoners is easy to understand. In 2008 alone, over 
735,000 prisoners were released back into society. Federal, 
State, and local governments need to operate effective reentry 
programs. Preventing former prisoners from returning to prison 
is a worthy goal.
    When Congress first passed the Second Chance Act in 2008, 
little was known about the effectiveness of these prisoner 
reentry programs. The same holds true today. We simply do not 
have enough knowledge about what works and what doesn't work. 
Given the lack of knowledge about the effectiveness of the 
Second Chance Act programs and the severe burden of the Federal 
Government's debt, Congress should be wary of substantially 
increasing spending for these programs.
    However, a major goal of reauthorizing the Second Chance 
Act should be to greatly enhance our knowledge about the 
effectiveness about these programs. For this reason, I will 
outline five keys to successful promotion of scientifically 
rigorous evaluations of these programs.
    First and foremost, Congress needs to expressly mandate in 
the reauthorization of the Second Chance Act the experimental 
evaluation of prisoner reentry programs. By experimental 
evaluation I mean evaluations that use random assignment to 
allocate individuals to treatment and control groups. This 
method is considered the gold standard because random 
assignment is most likely to yield valid estimates of program 
impact. Less rigorous designs often yield less reliable 
results.
    Second, the mandated experimental evaluations need to be 
large-scale, multi-site studies. When Congress creates 
programs, especially State and local grant programs, the 
activities funded are not implemented in a single city or town. 
Federal grants fund numerous programs across the Nation. 
Congress should require that these programs be evaluated using 
national, multi-site experimental evaluations.
    Third, Congress needs to provide instructions on the types 
of outcome measures that will be used to assess effectiveness. 
When assessing the impact of reentry programs, the most 
important outcome measure is recidivism. While intermediate 
measures such as finding employment and housing are important, 
these outcomes are not the ultimate goal of reentry programs. 
If former prisoners continue to commit crimes after going 
through a reentry program, then the successful effects for 
intermediate outcomes will still matter little to judging 
whether these programs are effective.
    Fourth, Congress needs to institute procedures that will 
encourage government agencies, often possessing entrenched 
biases against experimental evaluations, to carry out these 
studies. One recommended method is that not later than 1 year 
after the reauthorization of the Second Chance Act, and 
annually thereafter, the Departments of Justice and Labor be 
required to individually submit a report on the progress that 
the Departments are making in evaluating the programs 
authorized under the Act through the Appropriations Committees 
and Judiciary Committees of both Chambers of Congress. Thirty 
days after the report is submitted to Congress, it should be 
made available on the Web site of the Departments of Justice 
and Labor.
    Last, congressionally mandated evaluations upon completion 
must be submitted to the Appropriations and Judiciary 
Committees of both Chambers of Congress in a timely manner. 
Thirty days after any evaluation is submitted to Congress, the 
evaluations should be made available on the respective Web 
sites of Departments of Justice and Labor.
    Prisoner reentry programs need to be rigorously evaluated 
to determine their effectiveness and reduce their recidivism. I 
believe the need for more evaluations transcends political 
party lines. Both Democrats and Republicans should agree on 
this issue. Policymakers should not implement prisoner reentry 
programs because advocates of Federal funding believe these 
programs are effective. There has to be a solid base, a 
scientific knowledge demonstrating that these programs are 
effective. Thus, Congress needs to do more to ensure that the 
reentry programs it funds are rigorously evaluated.
    [The prepared statement of Mr. Muhlhausen follows:]
               Prepared Statement of David B. Muhlhausen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________

    Mr. Scott. Thank you.
    Ms. Taylor.

    TESTIMONY OF GLADYSE TAYLOR, ACTING DIRECTOR, ILLINOIS 
             DEPARTMENT OF CORRECTIONS, CHICAGO, IL

    Ms. Taylor. Good afternoon, Chairman Scott and Ranking 
Member Gohmert. I am Gladyse Taylor from the Illinois 
Department of Corrections, and I am here today in support of 
reauthorization of the Second Chance Act.
    I have listened to my colleagues provide testimony this 
afternoon about research-based support for reauthorization. I 
have listened to some of the programs that have been funded 
with Second Chance authorization. My written testimony speaks 
to some of the programs that Illinois has been engaged in with 
respect to Second Chance Act funding. I think those programs 
have been successful. If I have a choice of whether I spend 
$120 a day on incarcerating an individual for minor crime 
versus spending $20 a day on keeping that person on the street, 
I think my choice is very obvious. So that is the way I look at 
it.
    And I think that in the State of Illinois we recognize that 
research is important. The State approved a Crime Reduction Act 
in 2009 that includes a risk assessment tool of our criminal 
population. It includes a sentencing policy advisory consult. 
It includes an adult redeploy mechanism so that we are not 
channeling all of our criminal populations into the Department 
of Corrections.
    So I think a combination of the information that has been 
provided from the other members testifying before this 
Committee is appropriate and relevant. However, I wouldn't say 
that these programs are not supported by funding or shouldn't 
be supported by funding. I would say the contrary, that funding 
and reauthorization of the Second Chance Act is important. It 
will assist these people in becoming productive members of 
society.
    Thank you.
    [The prepared statement of Ms. Taylor follows:]
                  Prepared Statement of Gladyse Taylor

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

    Mr. Scott. I want to thank all of our witnesses for their 
testimony.
    I recognize myself for 5 minutes.
    One of the things we look at as cost effectiveness is have 
any of you done studies to show that you save money in the long 
run or even short run by funding Second Chance programs.
    Ms. La Vigne. We have not conducted a cost effectiveness of 
Second Chance Act programs, but we have done similar studies of 
other programs, and we found that even marginal decreases in 
recidivism can be cost effective.
    Mr. Scott. Can you give us some numbers?
    Ms. La Vigne. I can supply them later. I don't have them in 
my head.
    Mr. Scott. Ms. Duran, you had given us the number of people 
who had applied for funds and how many of them got them, 7 
percent of the people, 93 percent of the applications. Did you 
get to see any of the applications to see how strong those 
programs were?
    Ms. Duran. Certainly. We are very familiar with the current 
2009 grantees that were funded this year and are very familiar 
with those applications. We have had a chance to do a 
preliminary review of some of the new 2010, the second cohort 
of Second Chance grantees that will be coming on line on 
Friday, October 1; and we are beginning to get to know this new 
class of grantees as well.
    What we have found in the 2009 cohort, both with 
demonstration grantees and with mentor grantees, is 
practitioners are still struggling with translating evidence-
based practices into their program designs. So a lot of our 
technical assistance and our partnership with the Urban 
Institute has focused on really trying to connect the research 
with this program design to make sure that they are targeting 
the right people with the right interventions that are likely 
to reduce risk and have an impact on those recidivism rates. 
That's a big priority for technical assistance for us.
    Mr. Scott. Are most of the programs new or existing 
programs that apply?
    Ms. Duran. Most of the programs have a history of 
implementing reentry efforts in their jurisdiction. Some of the 
mentor programs, it is their first time to operate a mentor 
model with returning offenders although some of them have had 
experience working with other--doing mentor programs with other 
populations or youth and are now translating that knowledge to 
adults.
    Mr. Scott. Is the evaluation requirement in the Second 
Chance Act effective so we know which ones are working and 
which ones are not working?
    Ms. Duran. As I understand it, the National Institute of 
Justice will be conducting an evaluability assessment of the 
current 2009 adult demonstration grantees and will use that 
information to determine which of those 2009 grantees are 
selected for the NIJ evaluation of Second Chance Act programs.
    So certainly after that evaluability assessment we will 
know more about how these grantees are progressing in terms of 
their ability to be able to be part of an evaluation.
    Mr. Scott. Mr. Gohmert.
    Mr. Gohmert. Thank you. We do appreciate your observations, 
your testimony here.
    Ms. Banks, what was the faith-based group that you had 
mentioned had 21 successes and only one recidivist?
    Ms. Banks. It is a leadership development program. They 
come into the jail several times a week to teach our inmates 
leadership skills.
    Mr. Gohmert. You had mentioned it was a faith-based group, 
and I was curious what group it was.
    Ms. Banks. It is called Freedom Inside and Out. They are a 
grassroots organization and very local.
    Mr. Gohmert. Are they sponsored by some faith?
    Ms. Banks. Absolutely not. Just a group of volunteers that 
our Sheriff had allowed to come into the jail, and they have 
been quite successful, and because of Second Chance we have 
been allowed to have them come in more often.
    Mr. Gohmert. What makes them a faith-based group?
    Ms. Banks. Their affiliation with their church.
    Mr. Gohmert. That is what I was trying to get at.
    Well, did Richmond look to other jurisdictions for their 
best practices to create their reentry programs?
    Ms. Banks. Absolutely. Our reentry program was actually in 
existence before the Second Chance Act. The Second Chance Act 
actually allowed us to take it from pre-release into 
transitional and post-release. So we did look at some other 
models that were on our CSG Web site, and they were also 
instrumental in helping us find some best practices at other 
localities.
    Mr. Gohmert. Ms. Duran, I appreciate your testimony and 
your observations and your recitation of the money that is 
saved, clearly, by avoiding recidivism. But since a program 
that works does save a State so much money, why do the States 
not put more money into such programs in order to save money?
    Ms. Duran. I think we are in the middle of observing a 
trend in State corrections agencies particularly where they are 
investing more in strategies that have evidence behind them of 
reducing risk and reducing recidivism. We are seeing increasing 
investments in reentry related services designed to target 
those reduction factors.
    Coming from Michigan, I can tell you, it is not easy. These 
are complicated systems working with folks that have 
complicated needs. And to get the systems to respond to those 
individual characteristics case by case by case every time to 
see the systemwide impacts is not an easy challenge, 
particularly inside corrections agencies that haven't had a 
tradition of using evidence-based strategies to inform their 
policies and practice.
    So we are working hard. The field is working hard. You are 
beginning to see increasing understanding of those practices of 
how to put them in place, the systems level. And then we see 
that investment.
    Mr. Gohmert. I understand that. But if it saves money, then 
it would seem that since it is saving the State money that the 
State ought to be willing to invest the money to save the State 
money. And if I am understanding you correctly, it sounds like 
perhaps the States are not satisfied yet that there is enough 
evidence to show that it is saving them money or they would be 
investing more.
    Ms. Duran. I think we see States investing more and more of 
their State general fund dollars in reentry related programs. 
That is a trend we have observed in many States around the 
country. Sometimes for the first time ever they have put their 
dollars into those policies and practices.
    So I think we are seeing that happen more and more, and the 
Second Chance Act has sort of led that example.
    Mr. Gohmert. Some States feel like the way we save money is 
if we can talk the Federal Government into funding our programs 
then it saves us money. And what we really need to get to is a 
point where States say this is a good program, recidivism saves 
money, it saves, it protects the public, and so, therefore, 
this ought to be where we invest our money, instead of 
continuing to have States come to the Federal Government to ask 
for the money.
    I can see my time is running out.
    Dr. Muhlhausen, you know, we do hear so much about 
evidence-based reentry programs, and I know you were discussing 
this. If there was one thing you would recommend above all 
other things that we do to ensure maximum efficiency, what 
would that be?
    Mr. Muhlhausen. I would say that would be mandating 
experimental evaluations. We need to have not just one 
evaluation or two evaluations done, but a lot of programs 
across the country need to be evaluated because you may have 
one you find to be successful here or there. You may find 
others that are not successful here and there. But we need to 
get a good picture.
    Because what happens often is you find one failed program, 
you can say that all these programs don't work. Or you can find 
one successful program, and you can say all of these programs 
work. When the fact is, all you know is you have one failed 
program and one successful program.
    So we need to really look at these programs across 
jurisdiction, across service areas and really get down and use 
the most scientifically rigorous methods available. And in most 
cases I would recommend doing a randomized experiment.
    Mr. Gohmert. Thank you.
    Mr. Scott. Before I recognize the gentleman from Michigan, 
I wanted to note the presence of the chief sponsor of the 
Second Chance Act, the gentleman from Illinois, Danny Davis, 
has joined us on the podium.
    The gentleman from Michigan.
    Mr. Conyers. Mr. Chairman, could I ask unanimous consent 
that we allow Danny Davis to make some comments here as an 
author of the bill?
    Mr. Scott. I was going to confer with the Ranking Member 
while you were speaking.
    Mr. Conyers. That is what I want to do.
    Mr. Gohmert. I don't think there will be any canings if we 
don't consent.
    Mr. Scott. Without objection, so ordered.
    Mr. Davis. Thank you very much, Chairman Scott, Ranking 
Member Gohmert. I want to thank both of you for your kindness 
and consideration. I want to thank Mr. Conyers and this entire 
Judiciary Committee for the effectiveness of its approach to 
dealing with the whole question of criminal justice from my 
vantage point and especially the question of reentry.
    I have got a couple of questions that I would just like to 
ask.
    Dr. Muhlhausen, I am a real fan of evaluation. I think it 
is very important that we get as much mileage out of everything 
that we do, especially when we are spending public dollars. And 
we certainly want to make sure that things work. Are there any 
approaches to reentry that you think are maybe more effective 
than others or any programs that you have taken a good look at 
or approaches that you think work better than perhaps some 
others do.
    Mr. Muhlhausen. Well, I think one thing to consider is I 
think prisoners when they come out of prison they need to 
develop attachments or reattachments. It could be to family. It 
could be to work. And I think that establishing somehow to get 
people as fast as possible into a working environment, where 
they are attached to it, where the perception or the belief 
comes I have something here that is worthwhile. I can build a 
life. Therefore, I don't want to do anything risking that life. 
I think work and family as well can do that.
    So I think there is not a lot of research--there is a 
program called--it is Center for Equal Opportunities in New 
York. It was a prisoner reentry program, and it found it had no 
affect on arrests. Whether or not you are in the control group 
or the treatment group, people were still being arrested. It 
did find people who got into the program faster and quicker and 
got a job were less likely to recidivate. So I think that rapid 
attachment is something to look at.
    So I think that is important, but I don't think we know--
right now, we don't have, at least from the literature that I 
have read, enough information about whether or not that can be 
successful. I think it could be promising, and I think it needs 
to be investigated further.
    Mr. Davis. I certainly agree that if one can find a job 
that becomes the very core I think of one's existence, so I 
certainly wouldn't quibble in any way with that.
    Ms. Taylor, we were on the plane together this morning--
early this morning, as a matter of fact--so I know you have had 
a long day. But let me, first of all, congratulate you on your 
recent appointment as the director of corrections for the State 
of Illinois, which is obviously one of the great big correction 
agencies in the country. And the number of individuals that we 
have coming out of the Illinois prisons each year are somewhat 
staggering, which means that the numbers going in are also 
somewhat staggering.
    I have been very pleased with the direction of the Illinois 
Department of Corrections over the last half a dozen years or 
so, and I think tremendous progress has been made. Which 
program activities do you think have been working best? I mean, 
I know the Department does a number of different things. Which 
of those do you think actually work best, from your vantage 
point.
    Ms. Taylor. Well, two immediately come to mind. I think our 
substance abuse treatment center models for Sheraton and House 
Western have very favorable recidivism rates. Our State's 
average recidivism is approximately 51 percent, but 
participants through those two substance abuse treatment 
programs, the outcomes, the performance outcomes are like in 
the 25 to 28 percent recidivism rate. So I know they are 
successful. That is one.
    And the second one is that we do have transitional jobs 
programs that have been in existence for maybe the past 4 
years, and we are starting to get the performance outcomes for 
those. But I would say to the doctor's comments, yes, jobs are 
important.
    So we are starting with a preplanning program within the 
institutions, carrying it through the agents of release and we 
are hoping that the employers in the State of Illinois 
recognize that it is critical to public safety that they 
continue working with these offenders. So I think that program 
is very successful.
    Mr. Davis. Mr. Chairman, let me thank you, the Ranking 
Member, and Chairman Conyers for the opportunity to 
participate. Again, I think that you have just been incredible 
as a Committee in advancing the concepts of reentry so that we 
can take advantage of the great opportunities that exist in our 
country.
    Mr. Scott. Thank you, and thank you for your strong work.
    Just looking at the numbers that Ms. Taylor gave us, when 
you have a hundred people and an average recidivism rate of 
about 50 and you drop it below 30, that is about 20 people that 
didn't return to prison. What is your annual per prisoner cost?
    Ms. Taylor. Well, my budget is $1.2 billion on an annual 
basis. The population count today is 48,000, and I have roughly 
about 24,000.
    Mr. Scott. Do you know what your marginal cost is? Because 
a lot of the cost is embedded, construction, things like that.
    Ms. Taylor. About $5,000 per inmate.
    Mr. Scott. $5,000 per inmate is marginal cost for an 
inmate?
    Ms. Taylor. Yes.
    Mr. Scott. And the embedded cost?
    Ms. Taylor. About $23,000.
    Mr. Scott. Do you know what the program costs are.
    Ms. Taylor. Of my----
    Mr. Scott. No, the Second Chance Act program, the----
    Ms. Taylor. We have in this current authorization--I 
haven't looked at all of the awards. Particularly, I know there 
is one for the Moms and Babies program. And the other programs 
are actually for our juvenile division, so it is a separate 
entity.
    Mr. Scott. The ones that were successful, that reduced 
recidivism about 50 percent, do you know the cost of those 
programs?
    Ms. Taylor. The Sheridan program is approximately about $18 
million in programming costs. And the population at that 
facility that are receiving those services are roughly about 
1,400 inmates.
    Mr. Scott. Okay.
    Mr. Muhlhausen, do you have any estimate, if we are going 
to do comprehensive evaluations, what an evaluation should 
cost?
    Mr. Muhlhausen. Well, experimental evaluations are costly. 
Large-scale evaluations can cost $10 million if you are dealing 
with, you know, tens of thousands of people participating in 
the evaluation, as far as your control group or your 
intervention group. So I think that--maybe set aside 10 percent 
of overall funding for programs that actually receive funding 
in the fiscal year. That may be a way to do it.
    But the exact dollar figure I am not sure to give you. It 
depends on--it takes a lot of planning. You know, I think that 
NIJ's efforts are good, but I think it could be doubled or 
tripled and we would find out much more valuable information 
than we would otherwise.
    Mr. Scott. And, Ms. La Vigne, can you say something about 
how we should be going about evaluation, how much money we 
should spend on it, how much a good evaluation costs?
    Ms. La Vigne. I don't disagree with Dr. Muhlhausen; it does 
cost a lot of money to do a good evaluation. Whether or not it 
is an experimental design--and, certainly, I think everyone 
agrees that that is truly the highest standard of evaluation--
there are other methods out there. And I would like to 
encourage us all to consider other methods that are nonetheless 
considered quite rigorous. There is propensity score matching; 
there are other methods out there.
    But the real cost, in my opinion, is in the interviews with 
the clients. Because if you are trying to really understand the 
impact on offending behavior, let's face it, people re-offend, 
they cause new victimization, and they don't necessarily get 
caught, they don't necessarily get arrested, and they don't 
necessarily return to prison or jail.
    So there is a great value in interviewing program 
participants. And you want to interview them over time so you 
can see whether the outcomes change over time. They are also 
the single greatest source of information for what types of 
programs they participated in and for how long. And they can 
also give researchers other information on intervening factors 
that might be contributing to their reentry success or failure, 
factors that can both help inform improvements in the program 
that is being delivered as well as help inform the impact 
evaluation.
    Mr. Scott. Thank you.
    Mr. Conyers, do you have any further questions?
    Mr. Conyers. Well, I haven't had any questions yet, Mr. 
Chairman.
    Mr. Scott. The gentlemen is recognized.
    Mr. Conyers. Well, thank you very much.
    Dr. Muhlhausen, I am wondering, as you have heard the other 
four panelists with you that have all talked about the benefits 
and the positive influence of this prisoner reentry concept, 
were you impressed with any of the benefits that they talked 
about that resulted from the programs?
    Mr. Muhlhausen. I was impressed in the sense that I think 
there are good ideas being implemented, but we need to know if 
they are effective ideas.
    Mr. Conyers. Uh-huh.
    Mr. Muhlhausen. And I wear my hat--when I come here to 
testify, I wear my hat as a social scientist whose 
concentration is on the evaluation of programs. And, for me, 
the ultimate judge of whether or not programs work is a 
rigorous scientific study. And so, while we may have anecdotal 
examples of where programs can be a success, often those 
anecdotal stories are biased or sometimes mistaken, or 
sometimes they are--I am not saying any individual here is 
doing it, but they are people seeking additional funding, and 
so they are not going to say, ``You know what? My program 
really stinks.'' They are not going to say that.
    But I think that we need to have objective data. I think if 
you do an experimental evaluation and you find that it was a 
quality evaluation and you find a program works--you know, I 
look at it and I am going to say, you know what, I am going to 
chalk it up as one program that works. If it doesn't work, I am 
going to chalk it up as a program that doesn't work. That is 
how I look at it.
    So I think that we can have detailed and some really good 
stories about what works and what doesn't work from 
practitioners, but we need to back that up with scientific 
evidence.
    Mr. Conyers. Well, that is great. I want to be as 
scientific as is appropriate, but that doesn't discount all of 
the statements that have been made here today, does it?
    Mr. Muhlhausen. Well, I would say that, if the statements 
made today had been backed up by scientific evaluations, they 
would be that much more stronger.
    Mr. Conyers. Of course.
    Mr. Muhlhausen. I think this takes me back to a case of a 
program that was implemented in Texas, where--it was a faith-
based program. And what they did was they looked at people who 
participated in the program versus people who didn't 
participate. And what they did was they only counted people who 
successfully completed the program. And the people who 
participated in the program but washed out because they were 
getting in trouble they didn't count.
    And so they had this enormously effective success rate of 
reducing recidivism, but it was really a bogus study. And so 
they went around, they told people, they told me, you know, 
``You have to look at this. It works.'' I looked at it, I am 
like, ``No, it really doesn't. Go back to the drawing board.''
    So I think that--I think we need to, when it comes to the 
public tax dollars, we need to have spending backed up by 
rigorous research.
    Mr. Conyers. Ms. La Vigne, you know something about the 
Returning Home study?
    Ms. La Vigne. Uh-huh.
    Mr. Conyers. Do you have a comment to add to this 
conversation?
    Ms. La Vigne. Sure, yes. The Returning Home study is a 
longitudinal study that The Urban Institute implemented a few 
years ago. We interviewed people behind bars and tracked them 
over the course of a year in the community. We did those very 
expensive surveys that I was talking about. So we got a lot of 
rich information about what their challenges were and what 
their support systems were like.
    And the study produced some very interesting findings. One 
finding that we had was that family support seems to make a 
great difference in reentry outcomes. It is something that, 
when we first had the information and shared it, people looked 
at perhaps questioningly. They said, ``Oh, we believe all these 
people have burned their bridges and they don't have any 
support systems anymore.'' What we found is that virtually 
everyone that we interviewed reported that they had someone 
that they considered to be a family member in their lives that 
could provide support, both moral support, emotional support, 
and tangible support in the form of housing and so forth, and 
that the higher that level of support, the better the reentry 
outcomes.
    We also found interesting findings when it comes to 
employment. We did find that people who had employment programs 
behind bars were more likely to be employed on the outside. And 
we also found that people who were employed were less likely to 
return to prison.
    But what is really interesting about our findings is that 
wages matter. So people who were employed earning $8 to $10 an 
hour were twice as likely to end up back behind bars in a 
year's time than those employed $10 to $12 an hour.
    So there were a lot of interesting findings that came out 
of this research that I think can help inform the current 
program's, the Second Chance Act, grantees.
    Mr. Conyers. Thank you.
    Dr. Muhlhausen, I assume you may have not have had the 
opportunity to examine the Returning Home study.
    Mr. Muhlhausen. No, I haven't actually read the study.
    Mr. Conyers. But it might satisfy some of your desire for 
more scientific rigor in the reporting.
    Mr. Muhlhausen. Well, I think it helps to know why people 
fail when they are outside. And I think that if attachment to 
work is important, then maybe a transition program that helps 
people get into good jobs is helpful.
    And, you know, I frequently get called by reporters who 
want to know somebody who is anti-rehabilitative services and 
corrections. And I am like, I am all for incarcerating really 
dangerous people, but if you put them behind bars, I am also 
not against trying to help them out while they are behind bars, 
providing services.
    Now, a lot of these services may not work; some may work. 
And they are not going to be a magic bullet, probably, in 
solving these problems. But I am for helping people.
    Mr. Conyers. Uh-huh. So you are not anti-rehabilitation?
    Mr. Muhlhausen. No. What I am anti is substituting 
rehabilitation for the incarceration of serious and violent 
offenders. Putting the two together is okay, but letting 
violent criminals roam the street without being behind bars is 
something I am not a fan of.
    Mr. Conyers. Well, now, when we boil all this down, you are 
anti-rehabilitation or you are not anti-rehabilitation? 
    Mr. Muhlhausen. I am for rehabilitation----
    Mr. Conyers. Okay.
    Mr. Muhlhausen [continuing]. Under appropriate 
circumstances.
    Mr. Conyers. All right.
    Now, that brings up the question of why you didn't make any 
comments in your prepared statement about the fact of the 
prison experience sometimes making it more difficult for 
rehabilitation, especially since you have had a prison 
correction experience yourself.
    Mr. Muhlhausen. Well, you know, one of the things that--
when I worked in juvenile corrections, one of things that just 
really stuck out to me was that, when I was with some of these 
youth, some of them would just put a big smile on your face, 
interacting with them, but when they would be on the outside, 
they were absolute terrorists.
    And I would sit down with one of them who always behaved 
well, staff trusted him to take care of chores, gave him extra 
benefits. You know, I asked him, you know, ``You were here 6 
weeks ago, and you came back. Why?'' And a lot of times, they 
have--some people don't have the support networks back home. In 
this individual's case, he was just--you know, ``I go back 
home, and I don't have--my parents aren't really around, and I 
am hanging out with my friends.'' And what are the friends 
doing? They are selling drugs. And so that is why he was always 
coming back.
    So I think some way to help people transition back is 
important. And I think that there is a lot of talk about 
evidence-based programs, but one of the problems with the whole 
concept of evidence-based programs is they assume that, once a 
program has been found to be effective, anytime it has been 
replicated anywhere else, it is going to have the same result, 
and that is not true. So that we need to have continual 
research.
    Mr. Conyers. Well, what about The Urban Institute Justice 
Policy Center research findings on challenges of prisoner 
reentry? Have you ever run across this document?
    Mr. Muhlhausen. I actually haven't read all of the 
document. I am familiar with it a little bit. And I think that 
The Urban Institute does a lot of good research and provides a 
lot of useful information, because I have cited it in the past, 
as well.
    Mr. Conyers. Good. And do they research the scientific 
levels that you established for it to be valid and significant?
    Mr. Muhlhausen. Well, I think the difference is that what I 
am concentrating on is program evaluations of where you are 
taking people and you are assigning somebody to treatment and 
non-treatment and you are finding out what the results of 
treatment are.
    In many cases, a lot of the research being done is, sort 
of, interviewing people afterwards. There isn't necessarily--
there wasn't an experiment going on. You are trying to find out 
why people recidivate, whey they didn't recidivate, and you are 
not necessarily doing an experimental evaluation. You are still 
doing research, and very good research.
    But what I am concentrating on is a different type of 
research, where you are evaluating--trying to find the 
effectiveness of these programs.
    Mr. Conyers. But this still is pretty authentic research 
that is going on. It may be in a different category from what 
you would prefer, but--let me ask you like this: Do you think 
The Urban Institute Justice Policy Center's findings are 
meaningful and useful on prisoner reentry?
    Mr. Muhlhausen. I would say yes. But, without knowing the 
findings on top of my head, I would be cautious about endorsing 
any one of them. But I think that, you know, their institute 
has received a lot of funding to do this type of research, and 
I think it provides useful information.
    Mr. Conyers. Well, could we make this available to you and 
then see if you could submit afterward--and it may not be in 
time for this hearing to be reported, but it could help us. 
Because we have had, in this Subcommittee alone, five hearings 
on this subject. And I think that if you and I were to go over 
all of the witnesses, you would find additional scientific 
research on prisoner reentry that would satisfy you as to the 
quality of this research, and it might affect your opinion 
about prisoner reentry.
    Mr. Muhlhausen. I am open-minded, so I would definitely 
love to answer a follow-up question on this issue.
    Mr. Conyers. You would do what?
    Mr. Muhlhausen. I would definitely love to answer a follow-
up question on this issue.
    Mr. Conyers. You would like to work with----
    Mr. Muhlhausen. Yeah.
    Mr. Conyers. Could I work with you on this----
    Mr. Muhlhausen. Definitely.
    Mr. Conyers [continuing]. And provide you with you the 
scientific information and see where you end up on this? 
Because I think you have the experience and the approach that 
would--that we could reach some kind of agreement.
    We reached an agreement with President Bush. We reached 
agreement with a number of conservative leaders in government. 
As a matter of fact, we haven't found anybody that is critical 
of it. And you have made it clear that you are not critical of 
it; you are just saying that you haven't seen the scientific 
research that validates prisoner reentry.
    Mr. Muhlhausen. Well, there is not much research that I am 
aware of that----
    Mr. Conyers. I know. Wait, that is the problem, though.
    Mr. Muhlhausen [continuing]. Shows these programs are 
effective.
    Mr. Conyers. Of course there isn't. But you haven't--look, 
I am going to help you research it. So, of course you haven't 
found much, but I am going to help----
    Mr. Muhlhausen. I appreciate your help.
    Mr. Conyers [continuing]. You find a lot more.
    Ms. La Vigne. If I may, thank you for holding up The Urban 
Institute's research. That is flattering.
    But in addition to that, as I mentioned in my formal 
testimony, we are in the process of documenting assessing for 
level of rigor and combining and distilling all the individual 
research studies, evaluations out there that fall under the 
larger umbrella of prisoner reentry. So that is correctional 
education programs, employment programs, substance abuse 
treatment programs, housing, et cetera, et cetera.
    We have identified a thousand studies that we think might--
might--meet some level of rigor. Of those, I am certain that 
there is a much smaller percentage that meet the level of rigor 
that Dr. Muhlhausen is asking for.
    But I would argue that the information is out there; it 
just has not been compiled and distilled and presented back to 
the field in the way that they can use that. And so that is 
what we are trying to do at The Urban Institute with Second 
Chance Act funding.
    Mr. Conyers. Well, will you join me and help me, as well?
    Ms. La Vigne. I would be happy to.
    Mr. Conyers. So both of us will be helping Dr. Muhlhausen.
    Now, there is also a fourth person I would like to involve, 
and that is attorney Demelza Baer, who is now a member of this 
Committee, who was one of the researchers on The Urban 
Institute study on prisoner reentry. She would make a great 
companion to work with us and Dr. Muhlhausen, don't you think?
    Would you be willing to accept this assistance----
    Mr. Muhlhausen. Sure.
    Mr. Conyers. Dr. Muhlhausen?
    Mr. Muhlhausen. Definitely.
    Mr. Conyers. Well, thank you very much, Mr. Chairman.
    Mr. Scott. Thank you.
    I would like to thank our witnesses for their testimony 
today. And it is going to be extremely--the follow-up is going 
to be extremely helpful, because, as Mr. Davis said, there are 
some good programs and some bad programs and very relatively 
little money. So we want to make sure that all of the money 
goes to the programs that actually work and not waste it on 
programs that don't work. So we appreciate the witnesses' 
willingness to help us evaluate the programs so we fund the 
good ones and don't fund the bad ones.
    We may have additional written questions which we will 
forward to you and ask that you answer as promptly as you can 
so that your answers can be made part of the record. The 
hearing record will remain open for 7 days for the submission 
of additional materials.
    And, without objection, the Subcommittee stands adjourned.
    [Whereupon, at 5:31 p.m., the Subcommittee was adjourned.]























                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Response to Post-Hearing Questions from Nancy La Vigne, Director, 
       Justice Policy Center, The Urban Institute, Washington, DC

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
